U.S. Department of                                      The Inspector General         Office of Inspector General
Transportation                                                                        Washington, DC 20590




August 15, 2014

The Honorable Charles E. Grassley
Ranking Member
Committee on the Judiciary
United States Senate
Washington, DC 20510

Dear Ranking Member Grassley:

Thank you for your letter of July 31, 2014, regarding your continuing efforts to
support the independence of Inspectors General in protecting taxpayer dollars against
waste, fraud, and abuse.

As requested, enclosed please find a report on our closed, non-public investigations
for the period covered by our latest Semiannual Report to Congress (October 1, 2013
through March 31, 2014). We can provide additional information about any of the
closed investigations listed upon request.

We are also pleased to report that it is our practice to make all non-sensitive audit
reports publicly available on our Web site. 1 As a result, we have no previously
undisclosed audits and evaluations to report for the period stated above. Similarly, our
last correspondence to the House Oversight and Government Reform Committee
regarding open audit recommendations, which you requested and is enclosed for your
convenience, is also publicly available on our Web site. 2

We appreciate your continued interest in these matters and your support of the
mission and goals of the Inspector General community. We would be happy to
provide you with updates to the information we have enclosed based on any future
requests that we receive.




1
  Audit reports, management advisories, new audit announcements, investigative summaries, congressional
testimony, and Semiannual Reports to Congress are available at www.oig.dot.gov.
2
  http://www.oig.dot.gov/library-item/6149



CC-2014-026
Thank you again for your inquiry and your continued interest in our office. If you
have any questions or need further information, please contact me at (202) 366-1959
or Nathan Richmond, Director and Counsel for Congressional and External Affairs, at
(202) 493-0422.


Sincerely,



Calvin L. Scovel III
Inspector General

Enclosures




CC-2014-026
                                                                                                        Enclosure
                         DOT OIG Closed Investigations, Non-Public
During the period October 1, 2013 through March 31, 2014, we closed 3 9
investigations that resulted in administrative action and 18 investigations that were
unsubstantiated and/or declined for prosecution and for which no other action was
taken (i.e., administrative or civil). 4 Please see the two charts below for further
details on these investigations.

                                              ADMINISTRATIVE
      Aviation                       Certificate Fraud, Aircraft                                               1
      Employee                       Abuse of Authority                                                        1
      Employee                       Computer Fraud                                                            1
      Employee                       Conflict of Interest (Public Corruption, Current Employee)                1
      Employee                       Pornography                                                               1
      Employee                       Time and Attendance Fraud                                                 1
      Grant                          Embezzlement                                                              1
      Grant                          Overbilling                                                               1
      Motor Carrier                  Certificate Fraud, Medical by Doctor                                      1
                                     TOTAL                                                                     9


                                             UNSUBSTANTIATED
      Aviation                       Accident Related                                                          1
      Aviation                       Certificate Fraud, Aircraft                                               1
      Aviation                       S.U.P Parts-Manufacturing                                                 1
      Grant                          Anti-Trust, Bid Rigging/Collusion                                         1
      Grant                          DBE Fraud                                                                 1
      Grant                          DBE Pass Through Fraud                                                    1
      Grant                          False Claims                                                              1
      Grant                          False Statements/Certifications/Claims                                    1
      Grant                          Kickbacks                                                                 1
      Grant                          Product Substitution/Substandard Work or Materials                        1
      Grant                          Public Corruption/Extortion                                               1
      Hazmat                         Carriage by Air                                                           1
      Motor Carrier                  Certificate Fraud, Medical by Driver                                      1
      Motor Carrier                  Fraudulent Registration Filings (Reincarnated Carrier)                    1
      Procurement                    Other                                                                     1
      Transportation Safety          NHTSA-Grey Market Vehicles                                                2
      Workforce Protection           Broker, Freight Forwarder, Carrier Registration                           1
                                     TOTAL                                                                    18




3
    This does not include investigations that were reopened.
4
    In addition, during the period requested, we closed 31 criminal, civil, and Office of Special Counsel
    Whistleblower investigations, which as a general rule are publicly disclosed.



CC-2014-026
